                                                                                                   B .S. Department of Homeland Security
                                                                                                   Eastem Regioil
                                                                                                   Office of Disaster Assistance Oversight
                                                                                                   10 Tenth Street, Suite 750
                                                                                                   Atlanta, Georg~a30309


                                                                                                   Homeland
                                                                                                   Secsmi-rity
                                                    December 11,2006

MEMORANDUM FOR:                           Scott Morris
                                          Director
                                          FEMA's Florida Long Term Recovery Office
                                          Orlando, Florida


FROM:                                     C. David Kimble
                                          Director
                                          Eastern Regional Office

SUBJECT:                                 Interim Review of Hurricane Wilma Activities
                                         City of Coral Gables, Florida
                                         FEMA Disaster No. 1609-DR-FL
                                         Report Number: DA-07-06

We performed an interim review of emergency services and debris removal costs associated with
Hurricane Wilma activities for the city of Coral Gables, Florida. The objective of the review was to
determine whether the city was properly accounting for disaster-related costs and whether such costs
were eligible for funding under FEMA's public assistance program. We analyzed the city's disaster
grant accounting system, reviewed its disaster costs and contracting policies and procedures, and
interviewed FEMA, city, and contractor officials.

The city received an award of $14.3 million from the Florida Department of Community Affairs, a
FEMA grantee, for emergency protective measures and debris removal activities. The award
provided FEMA funding for 6 large1 projects and 4 small projects. We limited our review to the
$14.1 million awarded under the 6 large projects, as follows:


                         Project    Approved Scope of Work                                   Amount Awarded
                         10 12      Debris Collection, Hauling, and Disposal                     $ 872,284
                         10 13      Debris Collection, Hauling, and Disposal                      10,449,096
                         2709       Debris Collection, Hauling, and Disposal                         921,138
                         3960       Emergency Protective Measures                                    957,955
                         4 134      Emergency Protective Measures                                    818,774
                         4830       Emergency Protective Measures                                     98,564
                         Total                                                                   $14,117,811




 Federal regulations ia effect at the time of the disaster set the large project threshold at $57,500.
    As of May 11,2006, the cut-off date of our review, the city had recorded $13.8 million in project
    expenditures and had received $10,139,843 of FEMA funds.


                                                    RESULTS OF REVIEW

    We determined that the city had an effective system for accounting for disaster-related costs. A
    separate cost account had been established to record project expenditures and accounting entries
    could be systematically traced to supporting source documents. Also, the city's contracts for debris
    removal activities were awarded according to federal procurement regulations.

However, the city's claim under several projects included $365,633 of excessive force account
equipment costs resulting from idle equipment time. The city claimed $380,552 (13,053 hours of
use) for vehicles used by city workers to monitor the activities of debris removal contractors. The
claim was based on the time the vehicles were checked out daily from the city's motor pool, which
typically ranged from 10 to 12 hours a day. However, once the workers arrived at their assigned
work sites, the vehicles generally remained idle until monitoring activities were completed for the
day and the vehicles were returned to the motor pool. FEMA guidelines (Public Assistance Policy
Digest, October 2001, p. 46) states that equipment rates are applied only to the time the equipment is
actually working, and that standby time and idle time are not eligible.

Using motor pool mileage data obtained from the city, we determined that the vehicles were in
actual operation for a total of 817 hours, or 12,236 hours less than claimed. To calculate the 817
hours of use, we first determined the total miles each vehicle was driven during the debris
monitoring operation, which occurred during October 23,2005 to January 29,2006. We then
converted each vehicle's mileage into hours of use (rounded up to the nearest whole hour) using an
assumption that the vehicle, while in operation, was driven at an average speed of 35 miles per hour.
The resulting hours of use were then multiplied by the applicable FEMA Schedule of Equipment
rate2 to arrive at the eligible cost. Using this methodology, we calculated that the city was eligible
for reimbursement of $14,920 for the 8 17 hours that the vehicles were in actual operation.
Accordingly, we question the difference of $365,633 related to the 12,236 hours that the vehicles
were idle, as follows:


                                 Project                   Amount Claimed                  Amount
                                  umber                    (Equipment Use)               Questioned
                                 2709                          $   355,612                $342,424
                                 3960                               19,844                   18,849
                                 4134                                5,097                    4,360
                                 Total                            $380,553                $365,633




2
 On many occasions. city workers used dump trucks and flatbed trucks for transportation purposes because no smaller vehicles were
available. This sane situation occurred ill the city's debris removal operation under Hurricane Katrina. Under that disaster. FEMA
approved a reduced equipment rate of $1 9.90 an hour (about 50 percent less than usual) as reasonable operating costs for the vehicles
since they were not used for their intended purposes (lifting and hauling). We used the same rate of $19.90 to calculate eligible costs
for dump trucks and flatbeds used for transportation purposes under Hurricane Wilma.
                                      RECOMMENDATION

We recommend that the Director of the Florida Long Term Recovery Office, in conjunction with the
grantee, disallow the $365,633 of questioned costs.


                       MANAGEMENT DISCUSSION AND FOLLOW-UP

We discussed the results of our review with FEMA, grantee, and city officials on October 26,2006.
City officials concurred with our finding.

Please advise me within 30 days of actions you take or plan to implement the recommendation. Your
response should be sent to:

                      U.S. Department of Homeland Security
                      Office of Inspector General - Audit
                      The Millennium Midtown
                      10 Tenth Street, N.E., Suite 750
                      Atlanta, Georgia 30309

Should you have any questions concerning this report, please contact me at (404) 832-6700.


cc: Chief Procurement Officer, DHS
    Chief Financial Officer, DHS
    Deputy Director, Gulf Coast Recovery
    Audit Liaison, DHS
    Audit Liaison, FEMA
    Regional Director, Region IV
